                                                                             Report No. DODIG-2014-124



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 29, 2014




                     Army Needs to Improve the
                     Reliability of the Spare Parts
                     Forecasts It Submits to the
                     Defense Logistics Agency




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Army Needs to Improve the Reliability of the Spare Parts
                                Forecasts It Submits to the Defense Logistics Agency



September 29, 2014                                Finding (cont’d)

Objective                                         which negatively affects depot operations and warfighter
                                                  readiness.  The Army forecast $705.3  million in spare parts
We determined whether the Army is                 requirements for FYs  2014 through 2016.  Unless the Army
reasonably forecasting Special Program            improves its forecasts, it will continue to negatively impact the
Requirements for spare parts ordered from         Defense Logistics Agency’s purchase decisions, stock levels,
the Defense Logistics Agency.                     and readiness.  

Finding                                           Recommendation
Army Life Cycle Management Commands did           We recommend that the Secretary of the Army develop Army‑wide
not provide the Defense Logistics Agency          policy and establish controls on monitoring and updating depot
with reliable forecasts of spare parts needed     overhaul factors consistently.
to support planned depot maintenance
projects.    Army depots did not order            We recommend that the Commander, Army Materiel Command,
$142.7 million of the $226.4  million parts       develop a plan of action with milestones to improve the accuracy
forecast for FY  2013.  For other parts,          of the Army Life Cycle Management Commands’ forecasts to the
depot requirements exceeded forecasts             Defense Logistics Agency.  The plan should address the problems
by $83.7  million.  This occurred because         this audit identified, to include:
Army policy and controls did not ensure
                                                     •	 establishing procedures and controls to make sure that
Army Life Cycle Management Command and
                                                        Life Cycle Management Command personnel use the correct
depot personnel:
                                                        parts lists for spare parts forecasting,
   •	 properly updated spare parts usage rates,      •	 establishing procedures and controls to ensure that depot
                                                        personnel properly code spare parts to avoid generating
   •	 correctly coded projects to select the
                                                        erroneous forecasts to the Defense Logistics Agency and
      appropriate list of required parts,
                                                        also correct existing erroneous forecasts, and
   •	 properly coded specific spare parts to         •	 developing a methodology for Life Cycle Management
      prevent erroneous forecasting, and                Command personnel to compare depot orders with
   •	 maintained       adequate   supporting            associated special program requirements in order to ensure
      documentation and compared past                   the reasonableness of spare parts forecasts.
      forecasts to actual orders.
                                                  Management Comments and
Unreliable Army spare parts forecasts cause       Our Response
the Defense Logistics Agency to either buy too
                                                  Comments from the Chief of Supply, Department of the Army,
many     parts    and    incur    unnecessary
                                                  and the Executive Deputy to the Commanding General, Army
inventory costs or to buy too few parts,
                                                  Materiel Command, addressed the recommendations and no
                                                  further comments are required. Please see the Recommendations
Visit us at www.dodig.mil
                                                  Table on the back of this page.

                                                                      DODIG-2014-124 (Project No. D2013-D000AG-0231.000)│ i
           Recommendations Table
                                                          Recommendations     No Additional Comments
                               Management                 Requiring Comment          Required
             Secretary of the Army                                            1
             Commander, Army Materiel Command                                 2.a, 2.b, 2.c




ii │ DODIG-2014-124 (Project No. D2013-D000AG-0231.000)
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background ______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________4

                  Finding. Army Life Cycle Management Commands
                  Did Not Provide the Defense Logistics Agency With
                  Reliable Forecasts of Their Spare Parts Needs_ _________________6
                  Army Life Cycle Management Commands Provided Unreliable Spare Parts Forecasts
                     for Planned FY 2013 Depot Maintenance Work___________________________________________7
                  Depot Overhaul Factors Not Reasonable_______________________________________________________9
                  Coding Errors Caused Incorrect Parts List Selections_______________________________________ 12
                  Incorrect Parts Coding Generated Erroneous Forecasts____________________________________ 14
                  Life Cycle Management Commands Not Maintaining Adequate Supporting
                      Documentation or Comparing Forecasts to Related Orders _ _________________________ 16
                  Unreliable Spare Parts Forecasts Increase the Defense Logistics Agency’s Risk of
                     Purchasing Excess Inventory_____________________________________________________________ 18
                  Unreliable Spare Parts Forecasts Negatively Impact Depot Readiness and Increase
                     Spare Parts Costs__________________________________________________________________________ 20
                  Conclusion______________________________________________________________________________________ 21
                  Recommendations, Management Comments, and Our Response__________________________ 21

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 25
                      Use of Computer-Processed Data_ _______________________________________________________ 26
                      Prior Audit Coverage______________________________________________________________________ 27
                  Appendix B. Special Program Requirement Generation Process__________________________ 28

                  Management Comments
                  Assistant Secretary of the Army______________________________________________________________ 31
                  Army Materiel Command______________________________________________________________________ 32

                  Acronyms and Abbreviations______________________________________________ 35

iv │ DODIG-2014-124
                                                                                                                                Introduction




Introduction
Objective
The audit objective was to determine whether the Department of the Army is
reasonably forecasting Special Program Requirements (SPRs) for spare parts ordered
from the Defense Logistics Agency (DLA).  Specifically, the audit reviewed the
SPRs that the Army Materiel Command’s (AMC) Life Cycle Management Commands
(LCMCs) submit to DLA to support planned depot maintenance programs.  See
Appendix A for our scope and methodology, use of computer-processed data, and prior
coverage of the Army SPR process.  

Forecasts are means of calculating the likelihood of future events occurring, based
on analyses of available data.  We focused on determining whether the spare parts
forecasts were reliable, including determining whether the Army’s process used the
best available information to prepare forecasts in accordance with DoD policy.  We
also focused on determining if the Army’s forecasting process functioned as
designed.  We acknowledge that several factors can impact the timing and extent
of planned depot maintenance projects including higher priorities, shortage of parts,
and associated work stoppages.  Because of these factors, the depots may order
a different amount of parts and may order them sooner or later than forecast.  We
considered these factors when evaluating the reliability of the forecasts.


Background
DoD Manual 4140.01, Volume 2, “DoD Supply Chain Materiel Management
Procedures: Demand and Supply Planning,” February 10, 2014,1 states that DoD
Components may use tools such as SPRs for collaborative forecasting between
materiel managers and their customers.  Through SPRs, customers are able to
communicate special future requirements directly to materiel managers, such as
DLA, who are responsible for purchasing and supplying the requested material to the
customers.  The using DoD Components may submit SPRs to the materiel manager
to forecast special program or project requirements.  The using DoD Components
are required to establish internal controls and maintain supporting documentation to
ensure the appropriateness and accuracy of SPR submissions, correlate requisitions
with related SPRs, and ensure timely and accurate reporting of significant changes.  


	1	
      DoD Manual 4140.01, Volume 2, replaced DoD 4140.1-R, “DoD Supply Chain Materiel Management Regulation,”
      May 23, 2003, which was the governing DoD policy for a significant portion of this audit. The revised manual did not
      contain significant changes to the forecasting process.




                                                                                                                             DODIG-2014-124 │ 1
Introduction



                 DoD Manual 4140.01 specifies that DoD Components are to use SPRs to forecast future
                 special program or maintenance project requirements that are nonrecurring and may
                 not be included in other forecasts based on recurring historical demand data.  For the
                 Army, AMC is responsible for ensuring LCMCs provide SPR forecasts to DLA in sufficient
                 time to acquire parts to meet scheduled requirements.  The LCMCs submit changes to
                 DLA to modify or cancel existing SPRs, determine the delivery schedule, and adjust the
                 SPR quantity as necessary for any schedule changes. If the delivery schedule is properly
                 established, the LCMCs are to ensure the correct parts are identified and available to
                 meet the scheduled requirements. Figure 1 shows the AMC structural relationships for
                 the SPR process.

                 Figure 1. AMC Structural Relationships for the SPR Process




                 Parts List and Forecasting Process
                 The LCMCs and depots use the Logistics Modernization Program (LMP) system to
                 plan depot maintenance projects and forecast spare parts requirements to DLA.  LCMC
                 personnel load the customer requirements into LMP and create a unique depot
                 maintenance project file.  The customer’s requirements include details such as:

                     •	 Type of equipment needing maintenance

                     •	 Number of units requiring maintenance, and

                     •	 Type of maintenance required.



2 │ DODIG-2014-124
                                                                                           Introduction



This project file is typically prepared years in advance of the depot actually executing
the work.  

Once LCMC personnel create the project file in LMP, the system uses the customer
requirements information to select a parts list, also known as a bill of materials,
which fits that type of work.  The parts list details the specific parts required to
complete the planned project work.  Based on the information in the project file and
in the parts list, LMP will forecast spare parts requirements to DLA using SPRs.  See
Appendix B for additional details on this process.

Because LMP uses the parts list to forecast future Army spare parts requirements,
the LCMCs and depot teams should retain and analyze all available information to
improve them.  By ensuring that parts lists are based on the best available data,
the LCMCs and depot teams allow for the spare parts forecasting process to function
reasonably and also contribute to DLA having the correct number of spare parts
available to support depot maintenance programs.


DLA Mitigates Risk of Acquiring Too Much Inventory by
Adjusting Purchases Based on Customer’s Historical
Buyback Rates
DLA is the largest DoD combat support agency, providing worldwide logistics
support in both peacetime and wartime to the Military Services.  DLA provides nearly
all of the consumable items the Services need, including weapon system parts.  DLA
personnel indicated they consider SPRs along with historical demand from all
customers when making purchase decisions.  DLA mitigates its risk of purchasing
too much inventory by adjusting some of the LCMCs’ SPRs by the percentage of
the forecast spare part needs that the depots have historically purchased.  DLA
refers to this as a “buyback rate,” which the DLA Office of Operations Research and
Resource Analysis (DORRA) calculates by depot and spare part combination based
on the forecast orders for the last 12  months and the actual depot orders received
(parts ordered/parts forecast on SPRs = buyback rate).  For example, if an LCMC
submitted an SPR informing DLA that its depot will need 1,000 rings to perform
a planned engine overhaul project, but historically the depot only purchased
50 percent of what the LCMC forecast, DLA’s system will reduce the forecast to
500 rings (1,000 x 50 percent).  DLA will then consider including some or all of
the reduced forecast when preparing the item’s demand plan and determining the
amount of stock to purchase to meet all customer requirements.  The buyback
rates account for some degree of changes to planned depot work schedules that may




                                                                                       DODIG-2014-124 │ 3
Introduction



                 occur throughout the fiscal year because they consider the previous four quarters of
                 SPRs and associated depot orders.  For example, if the LCMC forecast a need for
                 rings in April but their depot did not order the rings until September, the orders
                 would still count towards the buyback rate for that given fiscal year.  DLA personnel
                 stated the buyback rates are updated at the end of each fiscal year and apply the new
                 rates to future SPRs.


                 Army Transition from Special Program Requirements to the
                 Army Supply Plan
                 The Army is transitioning to a new process for sharing future spare parts requirements
                 with DLA, referred to as the Army Supply Plan.2 LCMC personnel stated that, under
                 the current SPR process, TACOM and CECOM LCMCs transmit future requirements to
                 DLA on a quarterly basis, while the AMCOM LCMC transmits future requirements to
                 DLA on a monthly basis.  Currently, DLA will only accept requirements that have a
                 delivery date of up to three  years in the future.  The Army Supply Plan changes the
                 transaction format, frequency, and future delivery date of the LCMCs’ requirement
                 submissions to DLA.  The forecasts LCMCs submit will be in a different transaction
                 format and all LCMCs will be transmitting the forecast requirements monthly.  In
                 addition, DLA will accept forecast requirements with a delivery date of up to 5 years
                 in the future.  However, the internal LMP processes used to develop those forecast
                 requirements will not change.  AMC and DLA personnel initially stated that the
                 transition from SPRs to the Army Supply Plan would take place in February 2014 but
                 the estimated transition date has been delayed until October 2014.  


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May  30,  2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls.  We identified
                 an internal control weakness where the Army LCMCs did not provide DLA with
                 reliable forecasts of their future spare parts needs.  The forecasts were unreliable
                 because Army policy and controls did not ensure:




                 	2	
                       According to DoD Manual 4140.01, Volume 2, the Army can use the Army Supply Plan to submit future forecast quantities
                       in place of SPRs. Army personnel can submit future forecast quantities either as an SPR or through the Army Supply Plan,
                       but not both.




4 │ DODIG-2014-124
                                                                                           Introduction



         •	 depot personnel maintained reasonable depot overhaul factors (DOFs),
           or spare parts usage rates, that contribute to the spare parts LMP forecasts;

         •	 LCMC personnel correctly populated the input fields that LMP uses to
           select the part lists that identify the parts, supply sources, and quantities
           needed for planned depot maintenance work;

         •	 depot personnel properly coded spare parts in LMP to prevent the
           system from generating erroneous spare parts forecasts; and

         •	 LCMC personnel maintained adequate supporting documentation for their
           spare parts forecasts and compared actual depot orders with forecast
           amounts to ensure the reasonableness of their spare parts forecasts.

We will provide a copy of the report to the senior Army official responsible for
internal controls.




                                                                                       DODIG-2014-124 │ 5
Finding




                 Finding
                 Army Life Cycle Management Commands Did Not
                 Provide the Defense Logistics Agency With Reliable
                 Forecasts of Their Spare Parts Needs
                 The Army did not provide DLA with reliable forecasts of spare parts needed to support
                 planned depot maintenance programs.  Specifically, the Army forecast its depots
                 would order $226.4 million worth of spare parts from DLA during FY 2013.  However,
                 the depots did not order $142.7 million (63  percent) of the forecast parts in FY  2013.  
                 In addition, the Army ordered $83.7 million in spare parts that they did not forecast.3
                 The Army provided unreliable forecasts to DLA because Army policy and controls did
                 not ensure:

                         •	 depot personnel maintained reasonable DOFs, or spare parts usage rates;

                         •	 LCMC personnel correctly populated data elements which LMP uses to select
                             the part lists that identified the parts, supply sources, and quantities needed for
                             planned depot maintenance work;

                         •	 depot personnel properly coded spare parts in LMP to prevent it from generating
                             erroneous spare parts forecasts; and

                         •	 LCMC personnel maintained adequate documentation to support their spare
                             parts forecasts and compared actual depot orders with related forecasts to
                             ensure their reasonableness in accordance with DoD policy.

                 Unreliable spare parts forecasts negatively affect DLA’s purchase decisions and
                 associated stock levels.  Specifically, DLA either buys too many parts and incurs
                 unnecessary inventory costs or does not purchase enough parts, affecting depot
                 operations and warfighter readiness.  The Army submitted spare parts forecasts
                 totaling $705.3 million to DLA for FYs 2014 through 2016.  Unless the Army improves
                 these forecasts, it will continue to negatively impact DLA’s purchase decisions and
                 stock levels.  




                 	3	
                       The Army ordered spare parts that were more than initially forecast. For example, the Army forecast a need for 50 units
                       of a given spare part to DLA. However, the Army subsequently ordered 70 units indicating that they likely understated
                       the forecast by 20 units. In such an instance, the value of the additional 20 units ordered would be included in the
                       $83.7 million total value that exceeded the forecast.




6 │ DODIG-2014-124
                                                                                                                                   Finding



Army Life Cycle Management Commands Provided
Unreliable Spare Parts Forecasts for Planned FY 2013
Depot Maintenance Work
Army LCMCs did not provide DLA with reliable forecasts of spare parts needed
to support planned depot maintenance programs.  DoD guidance4 requires DoD
components to establish internal controls to ensure appropriate and accurate SPR
submissions.  It also requires that once a past demand history is available, DoD
components will use actual past demand data, supplemented by future program
requirements data, to plan for future requirements.  

DORRA tracks Army SPR forecasts and associated orders to calculate buyback
rates.  DORRA makes this data available to the services, and DLA uses the buyback
rates to adjust some future SPR forecasts.  We obtained DORRA SPR data as of the
end of FY  2013, including one year of past SPRs (FY  2013) and associated buyback
rates, as well as three years of future SPRs (FY 2014–FY 2016).5 The DORRA data
shows that the Army LCMCs submitted SPR-based forecasts to DLA which predicted
Army depots would order $226.4 million worth of spare parts during FY 2013.  We
analyzed the DORRA data to determine the reliability of the SPR forecasts.6 Table  1
provides a breakout of the reliability of the Army’s SPR forecasts for planned
FY 2013 depot maintenance work.  

Table 1.  Reliability of Army LCMCs’ FY 2013 SPR Forecasts
                                                                                                  Over/(Under)-Stated
          SPR Buy                    LCMC SPR Value                 Associated Depot                 SPR Forecast
         Back Rate                      (millions)                  Orders (millions)                  (millions)
 <=100 Percent                              $182.0                              $39.3                   $142.7*
 >100 Percent                                   44.4*                           128.1*                     (83.7)*
      Total                                 $226.4*
 * These are broken out by LCMC and depot in Tables 2 and 3. We did not total the over/under
   stated amounts because they reflect SPRs and orders for different parts. For example, one depot
   may have ordered fewer truck parts than forecast and another depot may have ordered more
   helicopter parts than forecast. In regard to depot readiness, these amounts should not offset
   each other.




	4	
    DoD Manual 4140.01, Volume 2.
	5	
    These dates refer to when the LCMCs project that they will order the forecast spare parts to include any additions,
    modifications, or cancellations through the end of FY 2013.
	6	
    See Appendix A for additional information on our use of the DORRA data.




                                                                                                                          DODIG-2014-124 │ 7
Finding



                 Although the LCMCs forecast $226.4 million of spare parts requirements to DLA for
                 planned FY 2013 depot maintenance work, their associated depots only ordered
                 $83.7  million from DLA during FY 2013.  Therefore, the LCMCs overstated their
                 forecasts by $142.7 million.  Table 2 provides a breakout by LCMC and depot
                 of the value of parts associated with overstated LCMC forecasts.  

                 Table 2. Army SPRs for FY 2013 Planned Depot Work and Overstated Amounts

                                                     SPR Value         Actual SPR Order Value      SPR Overstatement
                        LCMC and Depot               (millions)               (millions)               (millions)

                     TACOM                             $149.6                   $54.3                        $95.3
                       Anniston                          106.1                    40.1                        66.0
                       Red River                          41.2                    13.7                        27.5
                       3 Other Sites*                      2.3                     0.5                         1.8

                     AMCOM                                61.8                    23.1                        38.7

                       Letterkenny                        32.8                    14.8                        18.0
                       Corpus Christi                     29.0                     8.3                        20.7

                     CECOM-Tobyhanna                      15.0                     6.3                         8.7

                        Total                          $226.4                   $83.7                      $142.7
                     * The other sites are Sierra Army Depot, Rock Island Arsenal, and Watervliet Arsenal.


                 In addition to the parts for which the LCMCs overstated their forecasts, the Army depots
                 also ordered $83.7  million more of other parts than the $44.4  million that the LCMCs
                 forecast to DLA.  Table 3 provides a breakout of the dollar value of spare parts for
                 which FY 2013 depot orders to DLA exceeded the associated LCMC SPR forecasts.

                 Table 3. Army FY 2013 Depot Orders Exceeding LCMC SPR Forecasts
                                                   SPR Value            Actual Order Value       SPR Understatement
                       LCMC and Depot              (millions)               (millions)                (millions)
                     TACOM                             $26.7                    $73.0                        $46.3
                      Anniston                           19.0                    49.0                         30.0
                      Red River                           7.4                    22.6                         15.2
                      3 Other Sites*                      0.3                     1.4                          1.1
                     AMCOM                               13.7                    41.7                         28.0
                      Letterkenny                         8.3                    24.6                         16.3
                      Corpus Christi                      5.4                    17.1                         11.7
                     CECOM-Tobyhanna                      4.0                    13.4                          9.4
                       Total                           $44.4                  $128.1                         $83.7
                     * The other sites are Sierra Army Depot, Rock Island Arsenal and Watervliet Arsenal


8 │ DODIG-2014-124
                                                                                                                                        Finding



Depot Overhaul Factors Not Reasonable
Army policy and controls did not ensure depot personnel maintained reasonable
DOFs.  The DOF affects the quantity of spare parts LCMCs forecast they will
need from DLA to support planned depot maintenance programs.  Each depot
maintenance project contains a list of parts needed to complete the project.  The
parts list identifies the estimated number of each spare part depot personnel will
need to perform maintenance action on one asset.7 Army technical manuals identify
mandatory and discretionary parts that personnel must replace during depot
maintenance actions.  The number of parts required is based on the previous
usage rates for similar maintenance projects and can be less than one in some
instances.  For example, if a depot overhauls 10 helicopters and replaces 5 cables,
the replacement rate is 50 percent.  Therefore, the usage rate, or DOF, would be
set to 0.5.  When the Army builds a future overhaul project for 10 helicopters,
it would send DLA a forecast for 5  cables.  See Appendix B for more details on
this process.

Depot personnel should develop and update DOFs based on parts usage rates
from recently completed depot maintenance programs of a similar nature.  These
usage rates provide a reasonable basis for estimating the quantity of DLA-managed
parts necessary for future depot maintenance work.  Our review of the applicable
Army policy found it was lacking specific details on DOF updates.  Specifically,
Army Regulation  750‑1, “Army Materiel Maintenance Policy,” September  12,  2013,
only provides the following limited guidance, “Depot parts managers are responsible
for updating DOFs in the bill of material upon completion of maintenance
programs.” AMC, LCMC, and depot personnel all stated that they were not aware of
any additional Army policy on the DOF updates.

We analyzed the DOFs for 30 spare parts from parts lists that CCAD and
ANAD used to complete depot maintenance actions.8                                           For these 30 spare
parts, we either observed or requested reviews of the DOFs to determine their
reasonableness.  These reviews involved depot personnel analyzing parts usage data
for recently completed maintenance programs of a similar nature.  For 20 of the
30 non-statistically sampled parts, the DOF resulting from the review varied
significantly from the DOF listed on the respective parts list(s).  Table 4 lists
details on the 20 parts which we determined had unreasonable DOFs.


	7	
      The asset can represent the next higher assembly (e.g. a rotor blade assembly) or an end item (e.g. a helicopter).
	8	
      There were a total of 34 parts on which we attempted to analyze the DOFs, however we were only able to make conclusive
      determinations on 30 of those parts.




                                                                                                                               DODIG-2014-124 │ 9
Finding



                 Table 4. Listing of 20 Parts with Unreasonable DOFs

                                                                                       DOF Variance
                                                  DOF on Parts         DOF Per                              Spare Part
                      Spare Part Description                                          Between Parts
                                                    List(s)*           Review                               Unit Price
                                                                                      List and Review

                      CCAD - 15 of 21 parts examined had unreasonable DOFs
                      Mechanical Housing        1.000              0.000                    -100.00%           $3,832
                      Motor Gear Case           0.100              0.000                    -100.00             1,467
                      Sealing Compound          1.000              0.000                    -100.00               708
                      Plain Hexagon Nut         0.500              0.000                    -100.00               407
                                                0.400                                       -100.00
                      Ball Bearing*                                0.000                                        6,225
                                                1.000                                       -100.00

                      Hose and Tube             0.900                                        -99.89
                                                                   0.001                                        1,478
                      Assembly*                 1.000                                        -99.90
                                                0.300                                        -99.67
                      Seal Fitting Insert*                         0.001                                          280
                                                3.000                                        -99.97
                      Coupling Clamp            0.500              0.010                     -98.00             1,062
                                                0.010                                        -90.00
                      Fluid Filter Body*                           0.001                                        1,327
                                                1.000                                        -99.90
                      Retaining Plate           0.800              0.390                     -51.25             1,928
                      Adapter Flange            1.000              0.630                     -37.00               838
                      Spacer Set                0.400              0.580                     +45.00               306
                      Thermostat                0.350              0.550                     +57.14             1,947
                      Bevel Gear                0.250              0.470                     +88.00             9,212
                      Electronic Parts Kit      0.500              1.000                    +100.00             7,816
                      ANAD - 5 of 9 parts examined had unreasonable DOFs
                                                12.000             0.735                     -93.88
                      Piston*                                                                                     312
                                                13.399             0.000                    -100.00
                                                14.000             0.490                     -96.50
                      Piston Ring Set*                                                                            250
                                                13.162             2.500                     -81.01
                                                                   0.590                     -41.00
                      Bearing Half Set*         1.000                                                             276
                                                                   0.000                    -100.00
                      Motor Cup                 9.000              6.975                     -22.50            11,173
                                                                   0.466                    +132.78
                      Breech Bolt*              0.200                                                             679
                                                                   0.962                    +381.01
                      * Some of the spare parts were tested against multiple parts lists which may have had different
                      DOFs based on the type of maintenance work performed.




10 │ DODIG-2014-124
                                                                                                                                        Finding



For example, ANAD substantially overstated its spare parts forecasts for an Army
M88 A1 12‑cylinder tank engine overhaul. The applicable Army technical manual
specified mandatory replacement of all 12 pistons and 12 piston rings during
each overhaul.  Therefore, the maximum forecast of pistons and piston rings
for one engine overhaul should have been 12 pistons and about 12 piston rings.9
However, there are five different sizes of pistons and piston rings that depot
personnel can choose from based on the condition of the engine.  The parts list
for the engine overhaul includes a DOF for each of the five sizes of each item,
but when taken together, they add up to quantities greater than the depot could
possibly use.  In total, these DOFs forecast 25  pistons and 35  piston rings of
various sizes for each engine overhauled despite the fact that the engine can only
contain 12 of each.

Additionally,             ANAD      personnel        stated       that     they     did     not      always       replace
each piston with a new item but instead used a combination of new and
remanufactured10 pistons to complete overhauls.  ANAD personnel stated
they used an average of four new pistons on each overhaul
and used remanufactured items to meet the remaining
                                                                                                    By using a
requirements.  In                contrast,        they      always        replaced
                                                                                                more reasonable
the piston rings with new items.  We examined a                                                DOF, ANAD reduces
planned FY 2015 overhaul of 29 tank engines which                                             its piston and piston
                                                                                                ring forecasts by
forecast a need for 725 pistons and 1,015 piston rings
                                                                                               1,252 parts valued
valued at about $484,000.  Based on analysis of past                                               at $359,000.
parts usage data, a more reasonable forecast would be
about 127 pistons and 361 piston rings valued at about
$125,000.  By using a more reasonable DOF, ANAD reduces
its piston and piston ring forecasts by 1,252 parts valued at $359,000.  ANAD
used similar information on four additional M88 A1 tank engine overhaul
projects and also likely overstated their associated piston and piston ring
forecasts          on     these      four     projects       by     approximately           2,288       parts      valued
at $657,000.         11
                           ANAD personnel acknowledged the existence of additional parts
that exceeded actual usage on this same parts list and others.  




	9	
       Depot personnel noted that piston rings are sometimes broken during installation. Therefore, they could possibly use
       slightly more than 12 piston rings to overhaul 1 engine.
	10	
       This represents the process of performing repairs or maintenance on a used part or piece of equipment so that depot
       personnel can reuse it instead of purchasing a new part.
	11	
       Calculation based on assumption that these similar projects would result in similar parts consumption as the
       project reviewed.




                                                                                                                              DODIG-2014-124 │ 11
Finding



                 Army needs to provide policy and develop a methodology for the depots
                 to   consistently     review   parts   periodically   and   adjust    their   estimates
                 (DOFs) accordingly.

                 Coding Errors Caused Incorrect Parts List Selections
                 Army policy and controls did not ensure that LCMC personnel correctly
                 populated data elements which LMP used to select the parts list that identified
                 the parts, supply sources, and quantities needed for planned depot maintenance
                 work.  LCMCs build projects and LMP forecasts requirements several years before
                 the depots perform the planned depot maintenance.  LCMC personnel develop
                 parts lists in LMP, which identify specific parts associated with planned depot
                 maintenance projects.  Each depot maintenance project identifies the list of
                 parts needed to complete the specific project.  The LCMCs use LMP to develop,
                 manage, and execute Army depot overhaul programs.  LCMC personnel establish
                 projects within LMP, which includes populating four key data elements to reflect:

                         •	 the type of work to be performed (work performance code),

                         •	 the military service for which the overhaul will be completed
                            (customer code),

                         •	 the specific work to be performed (scope of work), and

                         •	 whether the work is for a DoD or Foreign Military Sales customer
                            (country code).

                 Based on the data elements, LMP selects a specific parts list and forecasts spare parts
                 needed to support a planned depot maintenance project.  AMCOM officials informed
                 us that if all key data elements do not match, the LMP system logic causes it to select
                 the first available parts list.  To complicate matters, each of these data elements must
                 be filled out multiple times because of the various project levels within LMP.  In cases
                 where equipment has more than one associated parts list, improper coding may result
                 in the LMP selecting the wrong parts list.  

                 We identified inconsistencies in the parts list selection process that resulted in
                 the submission of unreliable spare parts forecasts to DLA.  Specifically, AMCOM
                 personnel incorrectly populated key LMP data elements, which caused LMP to
                 select the wrong parts list and generate erroneous forecasts.  For example, LMP




12 │ DODIG-2014-124
                                                                                                                                            Finding



overstated a forecast for isolators,12 which varied significantly
from what CCAD needed for planned maintenance on                                                            LMP
                                                                                                        erroneously
helicopter tail rotor blades.  When AMCOM personnel                                                   forecast to DLA
established the associated project in LMP, they did not                                             that CCAD needed
completely and consistently fill in all data elements,                                            9,060 isolators, valued
                                                                                                     at $4.5 million, to
causing LMP to select the wrong parts list.  As a result,
                                                                                                        perform the
LMP erroneously forecast to DLA that CCAD needed                                                         overhaul.
9,060 isolators, valued at $4.5  million, to perform the
overhaul.  In             this     instance,        AMCOM           personnel         did     not
populate the country code data element in LMP, which resulted in the system
selecting the wrong parts list.  CCAD personnel informed us that the actual tail
rotor blade overhaul project required an isolator that CCAD obtained from a supply
source other than DLA.  However, LMP generated invalid SPRs because the incorrect
parts list LMP selected identified DLA as the supply source.  Because of our
inquiries, AMCOM personnel subsequently cancelled all of the associated SPRs for
the isolators.  

In addition, we identified 100-planned CCAD maintenance projects for FYs  2014 and
2015 that contained missing data element(s) in LMP at some level.13 The missing
data element(s) were either the scope of work, country code, or both and could
have caused LMP to select the wrong parts list.  We non-statistically sampled 4 of
the 100 planned maintenance projects to determine whether the forecast parts
reconciled to the actual parts CCAD needed to complete them.  One of the
four projects forecast erroneous spare parts requirements because AMCOM
personnel did not identify the scope of work and country code, which resulted
in LMP selecting the wrong parts list.  The incorrect parts list selected
contained four unique parts.  Three of these were parts that CCAD would not
purchase from DLA but would instead obtain from other supply sources.  In
contrast, the parts list that LMP should have selected, and that reflects the parts
CCAD would actually use to complete the overhaul project, contained 14 unique
parts that CCAD would generally order from DLA.  We calculate that the erroneous
forecasts associated with these parts would total as much as $487,000.  Overall,
LMP could have selected the wrong parts list and generated invalid spare parts
forecasts for other projects.



	12	
       Isolators help control vibrations. Each UH-60 helicopter tail rotor blade overhaul calls for the mandatory replacement
       of 4 isolators.
	13	
       The missing data element(s) were at the project level, funded project level, or unfunded project level as a portion of a
       planned project can be fully or partially funded and unfunded.




                                                                                                                                  DODIG-2014-124 │ 13
Finding



                 Training, oversight, the addition of LMP edit checks, the comparison of SPRs to depot
                 orders, or a combination of these, could help LCMC personnel correctly populate key
                 data elements and reduce erroneous forecasting.  AMC should also consider requesting
                 AMCOM personnel to review planned CCAD maintenance projects and correct any
                 forecasts that LMP generated using the wrong parts list.


                 Incorrect Parts Coding Generated Erroneous Forecasts
                 Army policy and controls did not ensure that depot personnel properly coded parts in
                 LMP to prevent it from generating erroneous spare parts forecasts to DLA.  As a result,
                 the Army depots did not order the associated parts from DLA but instead used existing
                 depot stock on hand or obtained parts from other supply sources to complete FY 2013
                 depot maintenance work.

                 The LMP master record for each part contains settings that determine whether the
                 system will generate a forecast.  Depot personnel update these settings periodically if
                 the part’s supply status changes.  If depot personnel do not make the proper updates,
                 LMP will generate an erroneous parts forecast and submit it to DLA.

                 For example, LMP forecast ball bearing requirements to DLA for use in planned
                 CCAD maintenance work.  However, CCAD personnel had also coded the item in
                 LMP to provide notification when stock on hand drops to a specified minimum
                 level.  When LMP provides notification, CCAD personnel manually order a
                 specified amount of stock from DLA to allow the CCAD on-hand balance to
                 increase to a predetermined maximum level, which is approximately an 18 month
                 supply.  CCAD personnel stated that LMP should not forecast requirements to
                 DLA for items coded in this manner because the forecast is based on planned
                 depot maintenance work and not the quantity the depot will actually order
                 once the minimum level is reached.  However, we determined that CCAD did
                 not properly code these items in LMP, which caused LMP to generate erroneous
                                      forecasts to DLA.  In response to our inquiry, CCAD provided
                                            a     list   of   15,059   parts   they   established   as   manual
                               We                reorder point items in LMP as of January 2014.  We
                           identified
                                                   matched this list to DLA’s list of future SPRs for
                       1,923 unreliable
                        SPRs, valued at             planned CCAD maintenance work and identified 1,923
                        $5.4 million, for            unreliable SPRs for 1,134 unique parts valued at
                      1,134 unique parts             $5.4  million.  These forecasts are unreliable because
                       coded as manual
                         reorder point              CCAD periodically fulfills the requirements by placing
                             items.               manual orders when LMP identifies parts have dropped to
                                                their specified minimum level.


14 │ DODIG-2014-124
                                                                                                 Finding



We notified AMCOM LCMC personnel of this miscoding and they initiated
corrective actions to identify and cancel the associated SPRs and to make sure
that CCAD personnel assigned the correct codes to prevent future erroneous SPRs.

In another example, LMP forecast lock washer requirements to DLA for planned
ANAD maintenance work.  However, ANAD had also coded the item in LMP as
having vendor managed inventory and informed us that they had not ordered the
item from DLA in more than 2 years.  ANAD personnel stated that a vendor monitors
the maintenance line stock on hand and resupplies it as necessary.  Therefore,
LMP should not be submitting forecasts to DLA.  TACOM personnel stated
that ANAD personnel did not properly code these items in LMP, which allowed
LMP to generate and send erroneous forecasts to DLA.  ANAD provided us
a list of 8,789 parts they coded as vendor managed inventory in LMP as of
January 2014.  We matched this list to DLA’s list of future SPRs for planned
ANAD maintenance work and identified 1,173 unreliable SPRs for 241 unique
parts valued at $1.8 million.  These forecasts duplicate requirements that vendors
already support.

TACOM LCMC personnel informed us that they met with ANAD and contractor
personnel in March 2014 to determine the appropriate actions to correct this
issue.  TACOM personnel informed us that they needed time to research a pending
LMP change and determine how it will impact the ability to turn forecasting on
and off for vendor managed inventory.

We determined that the inaccurate coding caused LMP to generate and send
erroneous forecasts to DLA.  LCMC personnel stated that there are specific
LMP fields that depot personnel should change in order to prohibit LMP from
sending the erroneous forecasts.  

AMC should develop policy to make sure depot personnel are aware of actions they
need to take in coding LMP to prohibit it from generating and sending erroneous
forecasts.  In addition, in light of the problems identified, AMC should review existing
coding for spare parts in the Army LMP system and cancel all unintended SPRs
submitted to DLA for planned depot maintenance projects.




                                                                                       DODIG-2014-124 │ 15
Finding



                 Life Cycle Management Commands Not Maintaining
                 Adequate Supporting Documentation or Comparing
                 Forecasts to Related Orders
                 LCMC personnel did not maintain adequate documentation to support their SPRs
                 and did not compare actual depot orders with related forecasts to ensure their
                 reasonableness.  DoD Manual 4140.01 specifies that DoD Components are required
                 to establish internal controls and maintain supporting documentation to ensure the
                 appropriateness and accuracy of SPR submissions, correlate requisitions with related
                 SPRs, and ensure timely and accurate reporting of significant changes.  However,
                 limitations with the LMP system impaired the ability of LCMC personnel to fully comply
                 with DoD policy.

                 We non‑statistically sampled 28 parts and $9.7  million in associated stock that
                 AMCOM and TACOM LCMCs forecast they would need from DLA in FY 2013 to
                 support planned CCAD and ANAD maintenance programs.  For the 28 parts,
                                                DLA buyback rates showed that CCAD and ANAD either
                                                      did not place any orders or placed orders that varied
                      LCMC and                           significantly        from       the      LCMC‑forecast            quantities.  In
                   depot personnel
                                                           order to determine why the orders did not correlate
                   could not provide
                    documentation                          with the related SPRs, we requested LCMC personnel
                 supporting past SPRs                      provide          documentation             supporting           the       forecast
                    because of LMP                         quantities14 for the sampled parts.  LCMC personnel
                  system limitations.
                                                          informed us that they could not provide documentation
                                                       supporting the SPRs because the LMP system did not
                                                  retain support for SPRs associated with completed projects.  

                 CCAD and ANAD personnel also informed us that they could not provide supporting
                 documentation.  However, LCMC and depot personnel researched current item
                 coding, ordering and usage data, stock levels, current parts lists and associated DOFs,
                 and supply sources for our sampled parts.  Based on this research they provided
                 the following possible reasons why the depots either did not order any parts or why
                 their orders varied significantly from the quantities that the LCMCs forecast to DLA: 15



                 	14	
                        Supporting documentation includes the parts list, DOFs, number of assets scheduled to be repaired or overhauled, and the
                        planned timeframe for the project (including the expected monthly inductions) that LMP used to calculate the forecast.
                 	15	
                        We were unable to validate the legitimacy of the reasons provided for the unreasonable forecasts because the supporting
                        documentation was not maintained.




16 │ DODIG-2014-124
                                                                                                                                       Finding



               •	 LMP selected the wrong parts list,

               •	 depot used on-hand stock to satisfy maintenance requirements,

               •	 original equipment manufacturer or another vendor supplied the
                   needed parts,

               •	 parts lists contained inaccurate DOFs, and

               •	 depots experienced maintenance schedule change or work stoppage.

LCMC personnel did not establish a formal process to compare forecasts to related
orders to ensure SPR reasonableness.  DORRA buyback data showed that for
FY 2013, Army depots only ordered 37 percent of the value of spare parts Army LCMCs
forecast they would need from DLA.  We discussed the DORRA buyback rates with
LCMC personnel and they cited concerns with the accuracy of the rates.  We asked
LCMC personnel if they had established a similar methodology to compare depot
orders with SPRs and they informed us that they had not.  Therefore, they did not
have sufficient information to challenge the accuracy of DLA’s rates or have sufficient
information to improve the reasonableness of their SPRs.  Concerning ensuring
timely and accurate reporting of significant changes, LCMC personnel informed
us that they frequently respond to e‑mails and phone calls from DLA personnel
requesting validation of some SPRs.  

Our review of DORRA buyback rates for Army depots over the past three years
shows that the rates are declining, which indicates that the LCMCs’ spare parts
forecasts are getting less reliable.  Figure 2 shows this concerning trend of Army
buyback rates that DORRA calculated between the first quarter of FY  2011 and the
first quarter of FY 2014.16




	16	
       The buyback rates are calculated on a combination of the preceding four quarters of forecast and order data. For
       example, the buyback rate for first quarter (1Q) FY 2011 is based on forecasts and related orders for the period of
       January 2010 through December 2010.




                                                                                                                             DODIG-2014-124 │ 17
Finding



                 Figure 2. Trend of Declining Army Depot Buyback Rates

                      60.00%

                      55.00%

                      50.00%

                      45.00%

                      40.00%

                      35.00%

                      30.00%

                      25.00%

                      20.00%
                                Q1    Q2   Q3    Q4     Q1      Q2       Q3        Q4    Q1     Q2    Q3    Q4     Q1
                               FY11                    FY12                             FY13                      FY14

                                                                Buy Back Rate



                 AMC personnel informed us that as part of their transition to the Army Supply
                 Plan they are developing a methodology to compare forecasts to related orders
                 to ensure SPR reasonableness.  To allow for greater consistency and accuracy of
                 their results they plan to use both LMP and DLA data.  As part of this process,
                 AMC plans to develop metrics and calculate a “demand plan accuracy” for the spare
                 parts forecasts it provides to DLA.  

                 Until the Army transitions to the Army Supply Plan, AMC needs to develop a methodology,
                 to include establishing dollar value review thresholds, for comparing depot orders with
                 SPRs to ensure the reasonableness of their spare parts forecasts.


                 Unreliable Spare Parts Forecasts Increase the Defense
                 Logistics Agency’s Risk of Purchasing Excess Inventory
                 Unreliable spare parts forecasts contribute to DLA purchasing excess inventory
                 and incurring unnecessary costs.  If the LCMCs forecast more than their
                 depots actually need, DLA has an increased risk of purchasing excess inventory
                 and      incurring   unnecessary     costs     related       to    purchasing       and   holding   the
                 inventory.  For      FY 2013,   LCMCs        forecast    spare         parts   requirements     totaling
                 $142.7 million, which their depots did not order from DLA.  




18 │ DODIG-2014-124
                                                                                                                                         Finding




There is not a one for one relationship between the LCMCs’ spare parts forecasts
and DLA’s purchases decisions.  DLA makes purchase decisions based on variety
of information including consideration of the Army’s SPR forecasts.  The other
information includes the world-wide customer ordering history for a given spare
part as well as the current inventory level.  However, when DLA initiates purchases
based on overstated SPR forecasts, it incurs a variety of costs and consequences:

               •	 Purchasing Costs: DLA incurs purchasing costs both to pay the vendor
                   and to administer the contract and will only recoup these costs if it
                   eventually sells the inventory.

               •	 Holding Costs:             DLA incurs storage costs associated with maintaining
                   warehouse          space;      and        if    DLA    purchases        inventory         sooner       than
                   needed or purchases too much inventory, they will incur unnecessary
                   holding costs.

               •	 Disposal Costs:             DLA incurs costs for disposing excess, obsolete, or
                   expired inventory because many items require special procedures
                   relating to environmental impact or demilitarization requirements.

For        example,        AMCOM          forecast       a        requirement       for    257       fluid     filters     that
CCAD would order from DLA between July 2013 and September 2014 for
planned maintenance work.  DLA issued contracts in FY 2013 to purchase
117 fluid filters at a cost of $102,375 to supplement the 149, which DoD
EMALL17 showed they already had on hand.  DoD EMALL data also showed that
customers only ordered six fluid filters in the two years preceding DLA
awarding of these contracts.  At this ordering rate, the 149 units already on
hand represented about 50 years’ worth of stock.  CCAD personnel informed
us that the SPR forecasts to DLA for fluid filters were invalid because CCAD
typically obtains them from another supply source and in much smaller
quantities.  As a result, DLA spent $102,375 for parts they are unlikely
to sell and that will potentially result in unnecessary inventory holding
and other costs.




	17	
       DoD EMALL is a web-based online ordering system established to provide a full service electronic commerce site for use by
       DoD organizations to find and acquire goods and services.




                                                                                                                               DODIG-2014-124 │ 19
Finding



                 Unreliable Spare Parts Forecasts Negatively Impact
                 Depot Readiness and Increase Spare Parts Costs
                 The LCMCs’ unreliable forecasts also contributed to DLA being unable to fully
                 support Army depot requirements.  If the LCMCs forecast less than their depots
                 actually need, or DLA applies buyback rates and reduce valid forecasts because of
                 poor depot ordering history, DLA may not purchase sufficient inventory to support
                 the depot’s requirements.  The insufficient purchases of parts can impact Army
                 readiness by causing work stoppages at the depots or cause them to incur additional
                 costs to obtain the parts through small, rushed purchases from another supply
                 source at a significantly increased price.  Reliable forecasts are especially important
                 because it can take DLA over a year to purchase and deliver parts the depots need
                 to complete maintenance programs.  Therefore, once a shortage occurs it can take
                 a long time to remedy.  For FY  2013, Army depots ordered spare parts totaling
                 $83.7 million, which LCMCs did not forecast to DLA.  

                 The LCMCs’ understated forecasts contributed to 27 critical spare parts shortages
                 at CCAD and ANAD.  For example, housings first appeared on ANAD’s critical
                 item shortage report in July 2013.  In this instance, TACOM submitted SPRs to
                 DLA for 1,248  housings for planned FY  2013 ANAD maintenance work but ANAD
                 actually ordered 1,904 housings.  This 656  unit difference, valued at $1.2  million,
                 is included as part of the $83.7  million which the Army ordered in excess of their
                 SPR forecasts during FY  2013.  This item was still present on ANAD’s critical
                 item shortage report in March 2014.

                 Further, depots have paid considerably higher prices to purchase parts from
                 other supply sources to prevent or shorten work stoppages when they were
                 unable to obtain spare parts from DLA.  For example, ANAD personnel provided
                                    documentation showing that when they were unable to obtain
                                          bearings from DLA to support a FY 2012 maintenance project
                       ANAD paid            they paid $2,975 apiece to obtain bearing sets that they
                    $2,975 apiece to         previously purchased from DLA for $178.  As another
                   obtain bearing sets       example,       CCAD   personnel   provided   documentation
                  that they previously
                    purchased from           showing that when they were unable to obtain couplings
                     DLA for $178.           from DLA to support a FY  2014 maintenance project
                                           they paid $1,500 apiece to obtain couplings that DLA sold
                                         for $301 apiece.




20 │ DODIG-2014-124
                                                                                               Finding



Conclusion
The Army can reduce the associated risks that impact DLA’s purchase decisions
and minimize the related costs and consequences by addressing the problems this
audit identified and improving the reliability of its SPR forecasts.  DORRA data
showed that for FY 2013, Army depots only ordered 37 percent of the value of
spare parts Army LCMCs forecast they would need from DLA.  In addition, our
analysis of Army depot buyback rates shows that they have been declining over
the past three years, which indicates that the LCMCs’ forecasts are getting less
reliable.  The Army continues to provide DLA with significant forecasts of its future
spare parts requirements.  Specifically, DORRA data shows that the Army has provided
DLA with SPRs valued at $705.3 million to support planned depot maintenance
work for FY  2014 through FY  2016.  Considering the significant dollar value
associated with the Army’s future forecasts, even slight improvements could have a
major impact on DLA’s purchase decisions and associated stock levels.  


Recommendations, Management Comments, and
Our Response
Recommendation 1
We recommend that the Secretary of the Army direct the Deputy Chief of Staff G‑4
(Logistics) to develop Army-wide policy and establish controls on monitoring and
updating depot overhaul factors consistently.  At a minimum, the policy should
prioritize depot overhaul factor reviews for items with low demand plan accuracy
or buyback rates as well as for projects that require high-volume, high-dollar
parts.  The policy should address the frequency and priority of the updates and
consider more frequent reviews for specific items deemed high priority.  


Assistant Secretary of the Army Comments
The Director of Supply, Office of the Deputy Chief of Staff, G-4, answering for
the Assistant Secretary of the Army, agreed with the responses provided below
by AMC, agreeing with the finding but not the recommendation.             The Director
of Supply stated that Army policy already exists in Army Regulation 750‑1 but
may be adjusted by an integrated process team review, which will conclude in
June of 2015.




                                                                                     DODIG-2014-124 │ 21
Finding



                 Army Materiel Command Comments
                 The Executive Deputy to the Commanding General, AMC, agreed with the finding
                 but not the recommendation, stating that the necessary policy is already in place.
                 The Executive Deputy stated that in response to the finding, AMC is initiating a
                 depot material requirements planning integrated process team that will address
                 DOF management, among other matters. The expected outcomes of the team include
                 clarifying guidance and the development of internal controls and methodologies
                 for DOF reviews.   The target competition date is June 2015 with implementation
                 scheduled June 2015 through January 2016 and ticket management for any
                 supporting LMP implementation set for FY 2017.


                 Our Response
                 We acknowledge that at the time of the audit, there was Army policy requiring
                 depot parts managers to adjust DOFs at the closure of a depot maintenance
                 program.   However, the policy does not address the frequency or methodology
                 for performing overhaul reviews.    Audit results showed that sufficient controls
                 were not in place to ensure responsible depot personnel reviewed and adjusted
                 DOFs consistently or in timely manner. However, we believe the Executive Deputy’s
                 plan to establish a depot material requirements planning integrated process team
                 that will address DOF management by clarifying guidance and developing internal
                 controls and methodologies addresses the intent of our recommendation. Therefore,
                 no further comments are required.


                 Recommendation 2
                 We recommend that the Commander, Army Materiel Command, develop a plan
                 of action with milestones to improve the accuracy of the spare parts forecasts
                 that Army Life Cycle Management Commands provide to the Defense Logistics
                 Agency.  The plan should address the issues this report identified and include:

                         a.	 Establishing procedures and controls that ensure Life Cycle Management
                            Command personnel use the correct parts lists to identify the parts,
                            supply sources, and quantities needed for future depot maintenance
                            work.  The plan should consider training, the addition of edit checks
                            in the Logistics Modernization Program, the comparison of forecasts
                            and depot orders, or a combination of these actions.  In addition,
                            the plan should consider requesting Aviation and Missile Life Cycle
                            Management Command personnel to review planned Corpus Christi
                            Army Depot maintenance projects and correct any forecasts that the
                            Logistics Modernization Program developed using the wrong parts list.


22 │ DODIG-2014-124
                                                                                                   Finding



Army Materiel Command Comments
The Executive Deputy to the Commanding General, AMC, responding for the
Commander, agreed with the finding and recommendation.            The Executive Deputy
stated that corrective actions regarding AMCOM have been implemented or are
projected to be completed by September 30, 2014.            The Executive Deputy also
stated that the depot material requirements planning integrated process team,
initiated in response to audit report recommendation 1, will have additional
objectives to address training, procedures, controls, and necessary policy for selection
of parts, sources, and quantities, as well as data correction actions relative to existing
programs.    Furthermore, the team will address the business process and system
logic to prevent incomplete or erroneous data entry. The team will also implement
metrics to manage parts forecasts issued to DLA.        The target competition date is
June 2015 with an implementation schedule of June 2015 through January 2016
and ticket management for any supporting LMP implementation set for FY 2017.


Our Response
Comments from the Executive Deputy addressed all specifics of the recommendation,
and no further comments are required.

         b.	 Establishing procedures and controls that ensure depot personnel
            accurately code spare parts in the Army Logistics Modernization
            Program system to prevent the system from generating erroneous spare
            parts forecasts to the Defense Logistics Agency.  In addition, the plan
            should involve requesting depot personnel to review existing spare parts
            coding in the Army Logistics Modernization Program system and cancel
            all related existing erroneous special program requirements for future
            maintenance projects submitted to the Defense Logistics Agency.

Army Materiel Command Comments
The Executive Deputy to the Commanding General, AMC, responding for the
Commander, agreed with the finding and recommendation, stating that AMC will
develop policy and guidance to prevent erroneous forecasts, such as those identified
in the report.   In addition, the Executive Deputy stated that the transition to the
Army Supply Plan in October 2014 will automatically cancel unintended SPRs,
resolving any remaining erroneous forecasts.




                                                                                         DODIG-2014-124 │ 23
Finding



                 Our Response
                 Comments from the Executive Deputy addressed all specifics of the recommendation,
                 and no further comments are required.

                         c.	 Until the Army transitions to the Army Supply Plan, developing a
                            methodology for the Life Cycle Management Commands to compare
                            depot orders with associated special program requirements in order to
                            ensure the reasonableness of spare parts forecasts.  The methodology
                            should include using the Defense Logistics Agency’s buyback rates
                            or developing Army‑calculated ordering rates for Army depots and
                            also establishing dollar value review thresholds to prioritize high
                            dollar forecasts.  

                 Army Materiel Command Comments
                 The Executive Deputy to the Commanding General, AMC, responding for the
                 Commander, agreed with the finding and recommendation, stating that as part of the
                 transition to the Army Supply Plan, AMC will be implementing metrics to monitor
                 forecasts and orders, as well as to document changes in forecasts. In addition, AMC has
                 established closer collaboration with DLA to change forecasts. The target completion
                 of Army Supply Plan implementation is October 2014.


                 Our Response
                 Comments from the Executive Deputy to the Commanding General did not address
                 all specifics of the recommendation. However, both AMC and DLA confirmed that the
                 implementation of the Army Supply Plan is scheduled for October 2014. Therefore,
                 the proposed actions meet the intent of the recommendation, and no further
                 comments are required.




24 │ DODIG-2014-124
                                                                                          Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from September  2013 through July  2014
in accordance with generally accepted government auditing standards.  Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives.  We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

We reviewed the following applicable guidance:

        •	 DoD Manual 4140.01, Volume 2, “DoD Supply Chain Materiel Management
           Procedures: Demand and Supply Planning,” February 10, 2014,

        •	 Defense Logistics Manual 4000.25-2, “Military Standard Transaction
           Reporting and Accountability Procedures,” June 13, 2012, and

        •	 Army     Regulation    750-1,   “Army     Materiel   Maintenance    Policy,”
           September 12, 2013.

We contacted personnel from the Department of the Army, AMC headquarters,
DLA headquarters, and DORRA.  We selected two AMC LCMCs to audit, AMCOM
and TACOM.  We conducted site visits to TACOM, located in Warren, Michigan;
CCAD, located in Corpus Christi, Texas; and ANAD, located in Anniston, Alabama.

We reviewed the Army processes for estimating and forecasting spare parts
requirements to DLA.  We obtained historical and future Army SPR transaction
data from DORRA.  We verified information contained in the DORRA data and
the Army LMP.  We selected a non-statistical sample of 34 spare parts on which to
perform DOF testing.  Twenty five of these spare parts were chosen in advance
of site visits from the DORRA SPR data based on factors including their past buyback
rates and value of outstanding SPRs.  An additional nine spare parts were chosen
judgmentally while on site at CCAD.  We compared the number of parts used on
recently completed similar maintenance projects to determine whether the depots
were updating the DOFs and using the best available information to prepare future
forecasts in accordance with DoD policy.  We selected an additional non-statistical
sample of 28 parts based on DORRA data indicating that the Army purchased only
0‑55 percent of the orders which they forecast for FY 2013.  We interviewed
LCMC and depot personnel and reviewed documentation to determine why



                                                                                     DODIG-2014-124 │ 25
Appendixes



                 these parts were not ordered as forecast.  We observed Army personnel and
                 processes associated with SPR forecasting; interviewed analysts, program managers
                 and depot maintenance personnel; and reviewed and analyzed documents to
                 determine whether Army personnel properly followed applicable criteria.  


                 Use of Computer-Processed Data
                 We used computer-processed data extracted from DORRA, LMP, and DoD EMALL.  

                 DORRA personnel informed us that the SPR population data they provided was
                 extracted from the DoD EMALL system and the DLA Enterprise Business System
                 and compiled into Excel spreadsheets.  The Excel spreadsheets listed Army:

                         •	 Past SPRs and associated DORRA-calculated Buyback Rates, and

                         •	 Future SPRs DORRA extracted from the DLA Enterprise Business System.

                 The historical and future SPR transactions DORRA extracted from the DLA
                 Enterprise Business System are requirements generated by the Army LMP system
                 and submitted to DLA.  In order to test the reliability of the DORRA data, we
                 re‑ran DORRA’s calculation of buyback rates and related figures and examined
                 the data for duplicates and other anomalies.  We further tested this SPR data
                 through our requirements testing with the Army.  Specifically, we used the data to
                 test the Army SPR requirements determination process and used non-statistical
                 methods to sample future SPRs as well as the historical SPRs with little or no
                 associated depot orders to determine how the Army LMP system calculated
                 the SPR quantities, and whether or not those quantities were reliable.  

                 The data we obtained from the Army LMP system was in the form of screen shots
                 and Excel spreadsheets.  The Excel spreadsheets listed Army depot:

                         •	 Parts usage (consumption) histories,

                         •	 Parts order histories, and

                         •	 Parts extracts coded as either vendor managed inventory or as manual
                            reorder point inventory.

                 The usage and order histories were used to evaluate the reasonableness of the
                 DOFs listed on parts lists the depots used to complete planned maintenance
                 projects.  The LMP system usage histories reflect the quantities of a particular




26 │ DODIG-2014-124
                                                                                          Appendixes



part that depot personnel used to perform a previous overhaul project of a
similar nature.  We obtained corroborating evidence from depot personnel and
determined that the parts usage histories were sufficiently reliable for our purposes.

We identified unreliable SPRs and DOFs and the details on these deficiencies are
provided in the finding section of this report.


Prior Audit Coverage
During the last 10 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoD IG) issued three reports discussing
spare parts forecasting.  Unrestricted GAO reports can be accessed over the internet
at http://www.gao.gov.  Unrestricted DoD  IG reports can be accessed over the
internet at http://www.dodig.mil/pubs/index.cfm.  


GAO
Report No. GAO-10-469, “Defense Logistics Agency Needs to Expand on Efforts to
More Effectively Manage Spare Parts,” May 2010

Report No. GAO-09-199, “Army Needs to Evaluate Impact of Recent Actions to Improve
Demand Forecasts for Spare Parts,” January 2009


DoD IG
Report No. D2005-020, “Defense Logistics Agency Processing of Special Program
Requirements,” November 17, 2004




                                                                                     DODIG-2014-124 │ 27
Appendixes




                 Appendix B
                 Special Program Requirement Generation Process
                 The SPR forecasting process consists of four primary steps.18 The process is described
                 below and illustrated on page 30.

                            1.	     Personnel at the relevant Army LCMC build a project in the Army’s LMP
                                    system based primarily on customer requirements.  In addition to other
                                    information, the project in LMP contains:

                                       A.	 The project’s end item:  This is the item on which the depot performs
                                             maintenance.  It can be a full piece of equipment such as a tank,
                                             or can be a component such as an engine.  In the accompanying
                                             flowchart, “Item XYZ” is identified as the project end item.

                                       B.	 The nature of the project work:  Personnel use several data elements
                                             in LMP to describe the work depot personnel will perform for
                                             the project.  These indicate the type of work performed (work
                                             performance code), an identification of the customer (customer code),
                                             whether the work is for a DoD or Foreign Military Sales customer
                                             (country code), and additional specifics on the work performed (scope
                                             of work code).

                                       C.	 The project quantity:  The project also indicates a quantity of end
                                             items depot personnel will work on over the course of the project.  In
                                             the accompanying flowchart, the project quantity is 10.

                            2.	     LMP selects a parts list that depot personnel will need to use to complete
                                    the project work (commonly known as a “bill of materials”).  In advance
                                    of the project being built, Army personnel (typically at the depots) will
                                    have loaded one or more possible parts lists into LMP for each project end
                                    item.  When this process works correctly, LMP will evaluate the preloaded
                                    parts lists for the project end item and choose the parts list which best
                                    matches the nature of the project work.  In the accompanying flowchart,
                                    Parts List 2 is chosen.




                 	18	
                        This is a simplification of the process, focused on the details most useful for readers of this report.




28 │ DODIG-2014-124
                                                                                          Appendixes



     3.	   LMP uses the chosen parts list to generate a list of required spare parts,
           along with the supply source the depots will obtain the parts from; DLA
           or another supply source such as a vendor.  For each required part, the
           parts list includes the number of units of the part the depots will require
           to complete one project end item (known as a DOF).  For the items
           the depots procure from DLA, LMP multiplies the DOF by the project
           quantity, resulting in the total number of DLA-sourced parts.  In the
           accompanying flowchart, the depots only order Part 2 and Part 3 from
           DLA and these parts have DOFs of 0.5 and 3.0, respectively.  Multiplying
           the DOFs by the project quantity of 10, LMP forecasts a requirement
           for 5 units of Part 2 and 30 units of Part 3.

     4.	   LMP combines the total requirement for DLA-sourced parts with other
           stock information to produce SPRs.  This includes combining the project’s
           requirements with other project’s requirements for the same parts.  LMP
           then nets the total requirement against any parts the depot already has
           on hand and has not specifically designated to other projects.  This net
           forecast requirement is then transmitted to DLA on one or more SPRs.

The figure on the following page shows the process as described above, with
numbering corresponding to the four steps in the SPR generation process.




                                                                                     DODIG-2014-124 │ 29
Appendixes



                 Figure. SPR generation process




30 │ DODIG-2014-124
                                  Management Comments




Management Comments
Assistant Secretary of the Army




                                        DODIG-2014-124 │ 31
Management Comments



                 Army Materiel Command




32 │ DODIG-2014-124
                                                                                                Management Comments



Army Materiel Command (cont’d)

    Response to DoDIG Audit D2013-D000AG-0213.000 “Army Needs to Improve the Reliability of
    the Spare Parts Forecasts it Submits to the Defense Logistics Agency”

    Audit Finding         Army Life Cycle Management Commands Did Not Provide the Defense
                          Logistics Agency With Reliable Forecasts of Their spare Parts Needs

                          Army Life Cycle Management Commands Provided Unreliable Spare
                          Parts Forecasts for Planned FY 2013 Depot Maintenance Work

                          Depot Overhaul Factors Not Reasonable
    Audit                 Army needs to provide policy and develop a methodology for the depots
    Recommendation        to consistently review parts periodically and adjust their estimates (DOFs)
                          accordingly (Recommendation 1).


    Response: AMC concurs with the finding but does not concur with the recommendation. AMC
    and its component organizations acknowledge the Depot Overhaul Factor (DOF) issue.
    However, the audit report should concede that necessary policy is already in place. CPM 750-2
    (2.b.3.b) discusses the required adjustment to DOF at closure of a program and AR 750-1 (5-
    19.b(3)) states that depot parts managers are responsible for updating the DOF upon
    completion of maintenance programs. These policies are specific regarding what needs to be
    done and when it needs to be accomplished. Therefore, additional policy is not necessary. DOF
    management needs to consider unknown variables that can only be estimated prior to the
    beginning of the repair program such as the report example citing the use of different sizes of
    pistons and piston rings based on the condition of the engine. In response to this finding, AMC
    is initiating a Depot Material Requirements Planning (MRP) Integrated Process Team (IPT) from
    which one objective will be to address DOF management. Expected outcomes of the IPT
    include provision of clarifying guidance of and development of internal controls and
    methodologies for DOF reviews and corrective actions by AMC and its component
    organizations.

     The target completion date for the Depot MRP IPT is June, 2015 with an implementation
    schedule targeting June, 2015 through January, 2016 and ticket management for any
    supporting LMP implementation targeted for FY17.

    Audit Finding         Coding Errors Caused Incorrect Parts List Selections
    Audit                 Training, oversight, the addition of LMP edit fields, the comparison of
    Recommendation        SPRs to depot orders, or a combination of these, could help LCMC
                          personnel correctly populate key data elements and reduce erroneous
                          forecast. AMC should also consider requesting AMCOM personnel to
                          review planned CCAD maintenance projects and correct any forecasts
                          that LMP generated using the wrong parts list (Recommendation 2.a).


    Response: AMC concurs with both the finding and recommendation. AMC and its component
    organizations acknowledge the issue of inappropriate parts list selection but would prefer that
    the audit report acknowledge that corrective action particularly regarding AMCOM has already
    been implemented. There is a standard to dictate the value for three of the four program data
    elements that are used to select the preferred parts list (WPC, Customer Code and Country
    Code). A standard did not exist for the Scope of Work (SOW) field. AMCOM implemented a
    matrix for MRP SOW where the aviation programs were updated in Production LMP 1QFY14.

                                                   1




                                                                                                        DODIG-2014-124 │ 33
Management Comments



                 Army Materiel Command (cont’d)

                      The LEAD and missile programs are being worked with projected completion being September
                      30, 2014. Additionally, the Depot MRP IPT discussed above will have as further objectives to
                      address: 1) training, procedures, controls and further necessary policy guidance for the
                      selection of parts, sources and quantities of repair programs as well as data correction actions
                      relative to pre-established programs; 2) enhancement of business processes and the research
                      of the application of termination logic to prevent incomplete and/or erroneous data entry; and 3)
                      the implementation of metrics and additional business processes designed to manage parts
                      forecasts issued to DLA.

                      The target completion date for the Depot MRP IPT is June, 2015 with an implementation
                      schedule targeting June, 2015 through January, 2016 and ticket management for any
                      supporting LMP implementation targeted for FY17.

                      Audit Finding         Incorrect Parts Coding Generated Erroneous Forecasts
                      Audit                 AMC should develop policy to make sure depot personnel are aware of
                      Recommendation        actions they need to take in coding LMP to prohibit it from generating and
                                            sending erroneous forecasts. In addition, in light of the problems
                                            identified, AMC should review existing coding for spare parts in the Army
                                            LMP system and cancel all unintended SPRs submitted to DLA for
                                            planned depot maintenance projects (Recommendation 2.b).


                      Response: AMC concurs with both the finding and recommendation. AMC and its component
                      organizations acknowledge the issue of incorrect coding that has led to erroneously generated
                      forecasts. AMC will develop policy establishing guidance to its component organizations for
                      determining exclusion parameters that will prevent the issuance of erroneous forecasts such as
                      those identified in the audit report. As a result of the transition to the Army Supply Plan (ASP),
                      previously unintended SPRs will automatically be cancelled thereby resolving any remaining
                      erroneous forecasts for planned depot maintenance projects.

                      The target completion date for both policy and ASP implementation is October, 2014.

                      Audit Finding         Life Cycle Management Commands Not Maintaining Adequate
                                            Supporting Documentation or Comparing Forecasts to Related Orders
                      Audit                 Until the Army transitions to the Army Supply Plan, AMC needs to
                      Recommendation        develop a methodology, to include establishing dollar value review
                                            thresholds, for comparing depot orders with SPRs to ensure the
                                            reasonableness of their spare parts forecasts (Recommendation 2.c).


                      Response: AMC concurs with both the finding and the recommendation. AMC is presently
                      transitioning to the Army Supply Plan (ASP). In the implementation of ASP, AMC will be
                      implementing forecast accuracy and churn metrics in order to identify any variances between
                      forecasts and orders as well as to document changes in forecasts. Additionally, increased
                      collaboration with DLA regarding changing forecasts has been established.

                      The target completion date for ASP implementation is October, 2014.




                                                                      2




34 │ DODIG-2014-124
                                                                    Acronyms and Abbreviations




Acronyms and Abbreviations
  AMC     Army Materiel Command
AMCOM     Aviation and Missile Command
 ANAD     Anniston Army Depot
  CCAD    Corpus Christi Army Depot
 CECOM    Communications-Electronics Command
   DLA    Defense Logistics Agency
 DoD IG   DoD Inspector General
   DOF    Depot Overhaul Factor
 DORRA    DLA Office of Operations Research and Resource Analysis
   GAO    Government Accountability Office
  LCMC    Life Cycle Management Command
  LEAD    Letterkenny Army Depot
   LMP    Logistics Modernization Program
  RRAD    Red River Army Depot
SIPRNET   SECRET Internet Protocol Router Network
   SPR    Special Program Requirement
  TYAD    Tobyhanna Army Depot




                                                                               DODIG-2014-124 │ 35
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
